OFFICE OF AUDIT                                      DRAFT
REGION   8
   For Discussion and Comment Only - Subject to Review and Revision
DENVER, CO




                   Jefferson County Housing Authority
                            Wheat Ridge, CO

      Disposition of Low-Income Public Housing Units




2013-DE-1005                                                          SEPTEMBER 30, 2013
                                                                    Issue Date: September 30, 2013

                                                                    Audit Report Number: 2013-DE-1005




TO:            Carol Ann Roman, Director, Denver Office of Public Housing, 8APH
               Craig Clemmensen, Departmental Enforcement Center, CACB

               //signed//
FROM:          Ronald J. Hosking, Regional Inspector General for Audit, 8AGA

SUBJECT:       The Jefferson County Housing Authority, Wheat Ridge, CO, Did Not Properly
               Use Its Disposition Sales Proceeds


    Attached is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General’s (OIG) final results of our review of the Jefferson County Housing
Authority’s disposition process.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
913-551-5870.




                                                Office of Audit Region 8
                                   1670 Broadway, 24th Floor, Denver, CO 80202
                                      Phone (303) 672-5452, Fax (303) 672-5006
                          Visit the Office of Inspector General Web site at www.hudoig.gov.
                                          September 30, 2013
                                          The Jefferson County Housing Authority, Wheat Ridge,
                                          CO, Did Not Properly Use Its Disposition Sales Proceeds




Highlights
Audit Report 2013-DE-1005



 What We Audited and Why                   What We Found

We audited the Jefferson County           The Authority did not follow required disposition
Housing Authority based on concerns       procedures and did not use its sales proceeds properly.
that there were irregularities in its     It did not follow HUD procedures regarding sales
disposition process. The objective of     requirements, the use of sales proceeds, distribution of
our audit was to determine whether the    the remaining project reserves, the placement of
Authority followed U.S. Department of     Section 8 tenants, reporting its use of sales proceeds,
Housing and Urban Development             and the sale of units to an affiliated nonprofit entity.
(HUD) disposition procedures and used
its sales proceeds properly.

 What We Recommend

We recommend that HUD require the
Authority to (1) recover more than $6.4
million in ineligible costs associated
with its disposition process from non-
Federal sources, (2) place the correct
number of Section 8 tenants into units
purchased, (3) submit required reports,
and (4) implement conflict-of-interest
restrictions. In addition, we recommend
that HUD refer the Authority to the
Departmental Enforcement Center for
appropriate administrative and civil
actions if necessary.
                           TABLE OF CONTENTS

Background and Objective                                                      3

Results of Audit
      Finding: The Authority Did Not Comply With Its Disposition Agreement   4

Scope and Methodology                                                        10

Internal Controls                                                            11

Appendixes
A.    Schedule of Questioned Costs and Funds To Be Put to Better Use         12
B.    Auditee Comments and OIG’s Evaluation                                  13




                                            2
                       BACKGROUND AND OBJECTIVE

The Jefferson County Housing Authority is a public corporation, created and organized under the
provisions of the laws of the State of Colorado and the United States of America based on the
U.S. Housing Act of 1937 for the purpose of providing low-rent housing for qualified
individuals. The Authority is responsible for its Section 8 program, governed by the U.S.
Department of Housing and Urban Development (HUD), which allows it to provide rental
assistance to eligible individuals and families who rent units in the private rental housing market.
The Authority entered into annual contributions contracts with HUD continuously from April 12,
1979, until the disposition of its low-income public housing units on November 29, 2007.

The mission of the Authority is to provide affordable housing throughout Jefferson County to the
greatest number of eligible people in the most efficient and cost-effective manner. The executive
offices of the Authority are located at 7490 West 45th Avenue, Wheat Ridge, CO.

As of November 29, 2007, the date of disposition, the Authority administered 65 low-income
public housing units. According to its 2006 and 2007 audited financial statements, HUD
awarded the Authority more than $22,000 and $337,000, respectively, for its public housing
program. As of November 18, 2011, the Authority administered 1,532 Section 8 units.
According to its 2006 and 2007 audited financial statements, HUD awarded the Authority more
than $11 million in each of those years for its Section 8 Housing Choice Voucher program.

The HUD Special Applications Center received the Authority’s disposition application through
the HUD Public and Indian Housing Information Center on September 11, 2006. The Authority
provided HUD supplemental information related to the disposition through January 30, 2007.
HUD approved the Authority’s disposition request on March 7, 2007. The Authority requested
permission to modify the disposition on August 28, 2007, allowing it to sell all 65 units to a
nonprofit corporation at the fair market value. HUD approved the Authority’s request to modify
the disposition on September 20, 2007. The agreement approved the Authority to sell all 65 low-
income public housing units for an estimated fair market value of more than $10.5 million. HUD
completed its release of the declaration of trust for the 65 units on November 13, 2007.

The objective of our audit was to determine whether the Authority followed HUD disposition
procedures and used its sales proceeds properly.




                                                 3
                                RESULTS OF AUDIT


Finding: The Authority Did Not Comply With Its Disposition
         Agreement
The Authority did not dispose of its public housing units in accordance with the terms and
conditions of its disposition agreement or HUD regulations. This condition occurred because the
Authority chose not to follow the terms of its disposition agreement and misinterpreted guidance
it received from HUD. As a result, more than $6.4 million was not available to acquire and
rehabilitate low-income units or build new low-income housing as defined by HUD.




 The Authority Did Not Comply
 With Its Disposition Agreement


              The Authority did not comply with the terms of its disposition agreement with
              HUD. Specifically, it (1) inappropriately accepted a promissory note as payment
              from the buyer of its 65 low-income public housing units, (2) inappropriately sold
              its low-income public housing units to an affiliated nonprofit entity, (3) spent
              more than $975,000 in disposition sales proceeds on ineligible expenses, (4) did
              not return its remaining operating fund reserves as directed by HUD, (5) did not
              place the required number of Section 8 voucher holders into units it purchased
              using disposition sales proceeds, and (6) did not accurately report to HUD its use
              of disposition sales proceeds.

              The Authority Violated Its Method of Sale Requirements
              The Authority inappropriately accepted a promissory note as payment from the
              buyer of its 65 low-income public housing units. The Authority sold all 65 units
              in bulk to one buyer for the established fair market value of more than $10.5
              million. It accepted a promissory note from the buyer for that amount. The buyer
              paid off approximately $5.1 million of the note, which represented the proceeds
              the buyer received from reselling 47 of the 65 units.

              By investing the proceeds in a note, the Authority violated section 18(a)(5) of the
              U.S. Housing Act of 1937; regulatory requirements (24 CFR (Code of Federal
              Regulations) Part 970); and part A, section 9, of its annual contributions contract.
              Therefore, the uncollected amount of nearly $5.5 million was not a permissible
              use of disposition proceeds.




                                                4
                                                 
The Authority Made an Inappropriate Sale to an Affiliated Non-Profit Entity
The Authority inappropriately sold its low-income public housing units to an
affiliated nonprofit entity. In a letter from the Authority to HUD, dated August
24, 2007, the Authority requested permission to modify its initial disposition
application, allowing it to sell all 65 units to Jeffco Housing Corporation. In its
letter to HUD, the Authority stated that the Corporation was a separate and
independent legal entity that was not owned or controlled by the Authority in any
regard. The Authority also stated that the Corporation had its own board of
directors, which was not linked to the Authority. Part A, section 19, of the
Authority’s annual contributions contract prohibits it from entering into any
contract or arrangement in connection with projects governed by the annual
contributions contract in which the Authority has an interest, either direct or
indirect.

However, at the time of the disposition, the Authority’s board appointed all
members of the Corporation’s board. In addition, the Authority’s executive
director served as the executive director of the Corporation. Several closing
documents related to the sale of the units showed the Authority’s executive
director signing as the executive director of both the Authority and the
Corporation.

The Authority Spent Disposition Proceeds on Ineligible Expenses
The Authority spent more than $975,000 in disposition sales proceeds on
ineligible expenses when it purchased a vacant lot and paid the operating
expenses of its other non-annual contributions contract (non-public housing)
units. This was not an approved use of funds in its disposition agreement with
HUD.

The Authority was approved to use its disposition sales proceeds for the
acquisition, development, or rehabilitation of other properties that would more
efficiently or effectively operate as low-income housing. HUD regulations (24
CFR Part 941) require HUD to approve the acquisition of land for development
before the acquisition. However, the Authority did not receive HUD approval
before acquiring the vacant lot. In addition, the Authority constructed a storage
building on the vacant lot with no plans for future use of the lot. Therefore, the
more than $362,000 spent on the lot was an ineligible use of disposition proceeds.

Below is a picture of the vacant lot purchased by the Authority and the storage
unit built on the lot.




                                 5
                                   
The Authority also spent more than $612,000 of its disposition sales proceeds for
operating and other expenses of its other non-annual contributions contract units.
However, the use of these funds was limited to public housing units under an
annual contributions contract or housing assisted by the Section 8 Housing Choice
Voucher program by section 18(a)(5) of the Act . The following table lists the
disposition sales proceeds used to pay the operating and other expenses of the
Authority’s other non-annual contributions contract units.

    Use of Disposition Sales Proceeds for Operating and Other Expenses
       Property                Type Expense                 Amount
JCHA New Development           Flood Insurance             $10,279.00
     Caesar Square
      Apartments                  Operating               $428,396.74
  Parkview Apartments             Operating               $141,838.80
  Glendale Apartments             Operating                $32,387.19

The Authority Did Not Return Operating Fund Reserves to HUD
The Authority did not return to HUD its remaining operating fund reserves
totaling more than $150,000. The Authority was directed by HUD on two
occasions to identify and return operating fund reserves upon termination of the
project.

The Authority Did Not Place the Required Number of Section 8 Tenants Into Its
Units
The Authority did not place the required number of Section 8 voucher holders
into units it purchased using its disposition sales proceeds. The U.S. Housing Act


                                 6
                                  
           of 1937, Section 18, requires these funds be used toward Section 8 or public
           housing units. The following table lists the total number of units in the properties
           purchased or rehabilitated using disposition sales proceeds, the required number
           of units for Section 8 voucher holders based upon a pro rata percentage, and the
           actual number of units occupied by Section 8 voucher holders of the Authority.

                               Pro rata percentage of Section 8 tenants
                Property         Number of units        Required             Actual number
                                                        number of             of Section 8
                                                    Section 8 tenants           tenants
                Parkview
               Apartments               96                  18                  11*
             Viking Square
               Apartments               55                   6                   0*
          * This number does not include Section 8 voucher holders from other agencies
            pursuant to Intergovernmental Agreements and from agencies assisted by the
            State of Colorado Division of Housing

           The Authority Did Not Submit Required Reports
           The Authority did not accurately report to HUD its use of disposition sales
           proceeds by providing a financial statement showing how the funds were
           expended by item and dollar amount as required by HUD regulations (24 CFR
           Part 970). In addition, the Authority did not inform HUD about the amount of
           disposition funds used for the purchase or construction of each new non-annual
           contributions contract low-income housing project.

The Authority Misinterpreted
Guidance It Received From
HUD


           The Authority chose not to follow the terms of its disposition agreement and
           misinterpreted guidance it received from HUD. The Authority believed that it
           was enough to inform HUD that it was going to sell its units to the Corporation.
           However, it chose not to inform HUD of the specific terms of the sale.

           The Authority incorrectly believed that the disposition approval allowed it to use
           disposition proceeds for any low-income housing. However, HUD later informed
           the Authority that the approval letter stated that disposition proceeds must be used
           for housing that benefits low-income residents under the Act, which defines low-
           income housing as decent, safe, and sanitary dwellings assisted under the Act, and
           that housing assisted by Section 8 vouchers would also qualify as such housing.

           In addition, the Authority incorrectly believed that once it sold the units to the
           Corporation, it was no longer required to report its activities to HUD. However,


                                             7
                                              
           the disposition had not been completed; therefore, the Authority was required to
           report its disposition activities to HUD.

Funds Were Not Available for
Low-Income Housing as
Defined by HUD

           As a result of the conditions described above, more than $6.4 million was not
           available to acquire and rehabilitate low-income units or build new low-income
           housing as defined by HUD (the nearly $5.5 million not yet collected by the
           Authority and the more than $975,000 in ineligible expenditures). In addition,
           HUD could not adequately monitor the disposition activity and verify whether the
           Authority properly used its disposition sales proceeds.

Recommendations

         We recommend that the Director of the Denver Office of Public Housing

          1A. Ensure that the Authority recovers from non-Federal sources $5,496,367 in
              disposition sales proceeds that was not received from the sale of its 65 low-
              income public housing units and use the recovered funds for their intended
              purposes or return those funds to HUD within a reasonable period.

          1B. Require the Authority to repay from non-Federal sources $975,146 in
              disposition sales proceeds used in violation of its disposition agreement and
              use the recovered funds for their intended purposes or return those funds to
              HUD within a reasonable period.

          1C. Require the Authority to repay from non-Federal sources $151,828 in project
              fund reserves to HUD within a reasonable period.

          1D. Require the Authority to place a pro rata percentage of Section 8 tenants into its
              non-annual contributions contract units acquired using its disposition proceeds.

          1E. Require the Authority to submit financial statements that show how its
              disposition funds were expended by item and dollar amount.

          1F. Require the Authority to implement management controls to ensure that
              employees involved in a possible conflict of interest have no direct or indirect
              participation in the transaction.

          We also recommend that the Director of HUD’s Departmental Enforcement Center

          1G. Pursue all applicable administrative and civil actions if the Authority does not
              (1) recover the funds and use them for their intended purposes or return those

                                             8
                                               
funds to HUD within a reasonable period, (2) place a pro rata percentage of
Section 8 participants into its non-annual contributions contract units acquired
using its disposition proceeds, (3) follow the reporting requirements, and (4)
prevent employees who have a conflict of interest from being involved in
decisions associated with the disposition sale.




                              9
                                
                        SCOPE AND METHODOLOGY

Our audit covered the period November 1, 2007, through October 31, 2011. We performed our
onsite work from January 2012 through April 2013 at the Authority’s office located at 7490
West 45th Avenue, Wheat Ridge, CO.

To accomplish our objective, we obtained and became familiar with applicable sections of the
U.S. Housing Act of 1937, HUD regulations, the Authority’s annual contributions contract with
HUD, and Authority policies related to the disposition of its low-income public housing units.

To determine whether the Authority followed HUD procedures in the disposition of its low-
income public housing units, we examined documentation on the application, environmental,
reporting, and HUD approval requirements associated with a public housing agency’s disposition
of its low-income public housing units for all units sold.

To determine whether the Authority used the disposition sales proceeds properly, we examined
bank records, invoices, journal entries, and other documentation on all expenditures made using
disposition sales proceeds.

We did not use computer-generated data as audit evidence or to support our audit conclusions.
We used computer-generated data maintained by the Authority for background information
purposes only. All conclusions were based on source documentation reviewed during the audit.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                               10
                                                 
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

                     Controls to ensure compliance with disposition requirements.
                     Controls to ensure the safeguarding of contractual interests related to the
                      disposition.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiency

               Based on our review, we believe that the following item is a significant deficiency:

                     The Authority lacked controls to ensure compliance with disposition
                      procedures and instructions received from HUD.




                                                 11
                                                   
                                    APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

                   Recommendation                         Funds to be put
                                         Ineligible 1/
                       number                             to better use 2/
                       1A                                   $5,496,367
                       1B                     $975,146
                       1C                     $151,828




1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified. The Authority could have put $5,496,367 to better use for
     low-income housing as defined by HUD.




                                             12
                                               
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         13
                           
Ref to OIG Evaluation   Auditee Comments




Comment 1




                         14
                           
Ref to OIG Evaluation   Auditee Comments




Comment 2




                         15
                           
Ref to OIG Evaluation   Auditee Comments




Comment 3




Comment 4




                         16
                           
Ref to OIG Evaluation   Auditee Comments




Comment 5




                         17
                           
Ref to OIG Evaluation   Auditee Comments




Comment 6




Comment 7




                         18
                           
                            OIG Evaluation of Auditee Comments

The Authority’s written response along with its verbal response at the exit conference indicates
general disagreement with the findings and recommendations.

Comment 1      We do not address the Authority’s use of the standard Colorado Real Estate
               Commission approved form for commercial real estate transactions in the finding.
               As such, we are not agreeing or disagreeing that this form provides for the
               customary options for this type of transaction. We agree that the Special
               Applications Center probably never requested a copy of this contract because our
               conversations with the Special Applications Center indicated they were not aware
               that the Authority was carrying the loan on behalf of the buyer. This is supported
               by our review of the Authority’s request to modify its application for disposition
               because it did not inform the Special Applications Center of the details of its
               method of sale. As such, the Special Applications Center proceeded under the
               belief that the Authority would receive the entire dispositions sales proceeds as a
               single payment from the buyer.

               The terms of the Authority’s annual contributions contract states that investments
               in financial instruments must be approved by HUD. We found no indication that
               HUD ever gave this approval. The U.S. Housing Act of 1937 and the regulations
               limit the use of proceeds from the sale low-rent public housing units. The
               investment of proceeds in a note is not included in permissible uses. In its revised
               request to sell the 65 low-income public housing units, the Authority stated the
               “purchase and sale between (the Authority) and (the Corporation) would be
               accomplished by written contract containing all customary terms, conditions and
               obligations as in any other commercial real estate transaction.” The request
               contained no further details about the sale and did not mention the sale would be
               done in the form of a promissory note. As such, the approval to dispose of these
               units by the Special Applications Center did not allow for the financing of the
               sale.

Comment 2      The Authority was required to follow the provisions of its annual contributions
               contract with HUD. These provisions prohibit the Authority from entering into
               any contract or arrangement in connection with projects governed by the annual
               contributions contract in which the Authority has an interest, either direct or
               indirect. This includes any officer of the governing body of the Authority and any
               employee who formulates policy or who influences decisions. After approval of
               the revised request to sell its 65 low-income public housing units, at the time of
               the disposition approval, all Corporation board members were appointed by the
               Authority’s Board of Commissioners. In addition, the Corporation’s Internal
               Revenue Service Form 990, Return of Organization Exempt From Income Tax,
               shows the executive director of the Authority as the executive director of the
               Corporation and that he was receiving a salary. This form was submitted after
               approval of the disposition, and contradicts the Authority’s claim that its
               executive director was simply an agent of the Corporation signing on behalf of the

                                                19
                                                  
            Authority and that he was not an “executive” of the Corporation. In addition, our
            review of the seller’s settlement statements issued by the title company and the
            settlement statement (HUD-1) on the sale of the individual units in question
            shows the executive director of the Authority signing as the executive director of
            the Corporation. This violated the Authority’s conflict of interest restrictions
            specified in its annual contributions contract with HUD. The Authority now
            claims it has resolved any conflict of interest restrictions between itself and the
            Corporation. The Authority will need to work with HUD to verify if the conflict
            of interest violations identified in the finding are no longer present.

Comment 3   The disposition approval letter from the Special Applications Center clearly
            identified the legally permissible uses of disposition proceeds under section 18 of
            the U.S. Housing Act of 1937. Disposition proceeds may only be used for the
            “provision of low-income housing or to benefit the residents of the public housing
            agency.” It is important to note that “low-income” housing is limited to housing
            provided under the U.S. Housing Act of 1937. It is not the same as housing for
            “low-income families.” As such, housing assisted under the U.S. Housing Act of
            1937 is limited to annual contributions contract units and units receiving Section 8
            assistance under the Housing Choice Voucher Program. The statute is explicit in
            prohibiting the use of disposition proceeds for the provisions of housing that is
            not assisted by the U.S. Housing Act of 1937. The purchase of a vacant lot that
            cannot be used in accordance with an acceptable use is not a permitted use of the
            disposition proceeds. The building of a storage unit and the future planned
            expansion of the Authority’s offices is not an acceptable use of disposition
            proceeds under the U.S. Housing Act of 1937.

            The use of disposition proceeds for other than annual contributions contract
            housing or units receiving Section 8 assistance is not permitted. Therefore,
            disposition proceeds used to pay the operating expenses of the Authority’s other
            non-annual contributions contract units also does not qualify under the U.S.
            Housing Act of 1937. The Authority claims it had repaid a substantial portion of
            these funds when these properties started receiving a positive cash flow. The
            Authority will need to work with HUD to verify that these funds have been repaid
            from non-Federal sources.

Comment 4   The Authority asserts that any project reserve funds at the time of the disposition
            were included as part of the complete portfolio sold to the buyer. However, our
            review of the seller’s settlement statement between the Authority and the
            Corporation for the sale of these units did not indicate this. The Authority also
            asserts that HUD records should reflect the same information as it has, namely
            that no project reserve funds for its former public housing program are due to
            HUD. However, HUD’s Financial Assessment Subsystem on the Authority for
            calendar year ending 12/31/2007 showed there was $151, 828 in project reserve
            funds remaining after completion of the disposition sale in 2007. Information in
            this subsystem is placed there by the Authority’s certified public accountant. The



                                             20
                                               
            Authority will need to work with HUD to verify that these funds have been repaid
            from non-Federal sources.

Comment 5   The Authority asserts that it has placed the required pro rata percentage of Section
            8 vouchers into the units in question. The Authority indicates it has met this
            requirement by placing other Section 8 voucher holders from other agencies
            pursuant to Intergovernmental Agreements and from agencies assisted by the
            State of Colorado Division of Housing. These Section 8 vouchers are not issued
            by the Authority and they are not “port-ins” from other public housing agencies.
            The Authority will need to work with HUD to determine if this is allowable in
            order to meet the pro rata percentage requirement.

Comment 6   The Authority indicates it has submitted reports and responded to requests for
            information related to the disposition by HUD in the past. Our review of the
            Authority’s reporting responsibilities to HUD on its disposition activities did not
            support this assertion. However, planned actions on the part of the Authority
            should resolve this issue.

Comment 7   The Authority indicates the Office of Inspector General has overlooked the fact
            that it received approval to use its disposition proceeds for more than just the
            acquisition and rehabilitation of low-income housing as defined by HUD. The
            Authority believes it also received approval to use its disposition proceeds for
            items that “benefit the residents of the public housing agency.” This is incorrect.
            Although the approval letter contains the language “benefit the residents of the
            public housing agency,” Section 18 of the Act requires the disposition proceeds to
            be used only for Section 8 or public housing units.




                                             21
                                               
